wom  COCKLE

; E-Mail Address:
Omaha, Nebraska 68102-1214 Legal Briefs

Est. 1923 contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850 No. 19-32
GORDON SCOTT STROH,
Petitioner,

Vv.
SATURNA CAPITAL CORPORATION,
NICHOLAS KAISER AND JANE CARTEN,
Respondents.

AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 2nd day of August, 2019, send out
from Omaha, NE 2 package(s) containing 3 copies of the BRIEF AMICUS CURIAE ON BEHALF OF PROJECT ON
GOVERNMENT OVERSIGHT, INC. IN SUPPORT OF PETITIONER in the above entitled case. All parties required to be
served have been served by Priority Mail. Packages were plainly addressed to the following:

SEE ATTACHED

To be filed for:
NEIL L. HENRICHSEN
HENRICHSEN LAW GROUP, PLLC
301 West Bay Street, Suite 1400
Jacksonville, Florida 32202
Phone: 904-381-8183
Nhenrichsen@hslawyers.com
Counsel for Amicus Curiae

Subscribed and sworn to before me this 2nd day of August, 2019. .
1 am duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

cnn 3 E Elle Qudiar-h. Chale

My Commission Expires Nov 24, 2020

 

 

Notary Public Affiant 38388
 

Attorneys for Petitioner

 

 

Stephen M. Kohn Kohn, Kohn and Colapinto, LLP (202) 342-6980
Counsel of Record 3233 P Street, N.W.
Washington, DC 20007
sk@kkc.com
Party name: Gordon Scott Stroh
Attorneys for Respondents
Jeffrey Bruce Coopersmith Davis Wright Tremaine LLP (206) 757-8834
Counsel of Record 920 Fifth Avenue, Suite 3300

Seattle, WA 98104-1610

jeffcoopersmith@dwt.com

Party name: Saturna Capital Corporation, et al.

 

 
